uq/Uu.3/uo         U-L:i    ' rAA     a
                                    OuL   uo   oUu.
                                               0tri.l±            i   m,.i,•,   u".             run.'   r.yrcir       V e.u




O000DOE F 1325.8
(08-93)                                                                                        Department of Energy
United States Government                                                                       Department of Energy


Memorandum                                                                                  OFFICE OF INSPECTOR GENERAL


         DATE:        March 31,2006
    REPLY TO
     ATTN OF:          IG-34 (A05TG028)                                          Audit Report No.: OAS-L-06-10

    SUBJECT:           Report on Audit of "The Department's Information Technology Capital Planning and
                       Investment Control Process"
          TO:          Chief Information Officer, IM-1

                       INTRODUCTION AND OBJECTIVE

                       Federal guidance requires that Agencies develop and implement capital planning and
                       investment control (CPIC) processes to help ensure that their major information
                       technology investments achieve intended outcomes, represent the best allocation of
                       resources, and reach strategic goals and objectives. The Department of Energy
                       (Department) established an Information Technology Council (ITC), composed of
                       representatives from all major program offices to help maximize the business value and
                       mission performance of information technology investments.

                           In January 2004, the Government Accountability Office reported weaknesses in
                           investment management, performance measurement, and strategic planning across
                           Federal agencies, including the Department of Energy. As we observed in our recently
                           issued Special Report on Management Challenges at the Departmentof Energy
                           (DOE/OIG-0712, December 2005), information technology management continues to
                           pose a significant challenge. Because of the substantial investment involved, we
                           initiated this audit to determine whether the Department had effectively managed its
                           information technology capital planning and investment control process.

                           CONCLUSION AND OBSERVATIONS

                           The Department had developed a number of controls designed to improve the
                           management of its capital planning and investment control process. Specifically, the
                           processes for selecting, controlling, and evaluating information technology investments
                           had been enhanced by requiring quarterly investment: reviews; instituting the use of
                           investment performance improvement plans; developing investment scoring schemes;
                           and, publishing guidance for performing system post-implementation reviews. In
U'i/UO/Uu   J.L:1'i   rA& .JuI uu    '
                                    .3   iUiju      iVri   ^ <z...              ^ -   *..   ,             4,j Vw~




                                                                                                investment
                certain instances, however, we found that projects did :not always conform to
                                                                                                        of
                control requirements related to scoring, project manager certification, and validation
                                                                                   the effectiveness of the
                reported results. We also observed other factors that could limit
                investment control process. In particular:

                        *   Revisions needed to implement policy or requirement changes had not been
                            made to information technology related-directives;
                        *   Officials had not formally approved the operating charter for the ITC; and,
                        *   Resources necessary to carry out review and validation of investment
                            performance data had not been allocated.

                                                  Management and Review

                Performance scores, in some cases, were inconsistently applied and/or contrary to
                requirements. As part of the quarterly control reviews, the ITC was required to assign a
                score for each performance element (e.g., cost, schedule, and performance variance,
                project management, and security) and an overall score for each major investment by
                applying a "stoplight" (i.e., red, yellow or green) rating system. The scores were
                developed using information provided by the program. office responsible for the
                investment. If no cost, schedule, or performance information is reported by the
                program, or if investments were not meeting their performance thresholds, investments
                were to be scored as either red or yellow.

                 However, we identified an investment that received a score of "green" despite not
                 meeting its performance thresholds. Specifically, the National Nuclear Security
                 Administration's (NNSA) Nuclear Materials Accountability Project received a score of
                 "green" overall for the third quarter of FY 2005 even though the project incurred a cost
                 overrun of 13 percent. Based on scoring criteria, such an overrun should have resulted
                 in an overall score of "yellow." For other NNSA managed investments, projects were
                 scored only on an overall basis and omitted ratings for each of the individual investment
                 elements described above.

                 Project manager certifications were also not being adequately tracked for certain NNSA
                 managed investments. Both Federal and Department guidance require the use of
                 qualified information technology project managers. In addition, the Office of
                 Management and Budget (OMB) has identified their use as the first line of defense
                 against cost overruns, schedule slippages, and poor performance. Although the Office
                 of the Chief Information Officer (OCIO) maintained the Information Technology
                 Project Management Qualification Database, we noted that it omitted information for
                 project managers in the NNSA's project management mentoring program. An official
                 in the OCIO acknowledged this problem and indicated that procedures are currently
                 being developed to address this issue.




                                                       2
U4/U3/UI   1.U:10   PAA   .J1   UI J   4Do          ar00 1AL       KInotWliu      ruiv   rlivri        qyuu'




                                                                                       always
              Reported performance results for operational investments were also not               and
              reviewed and validated on an ongoing basis by OCIO officials. Federal directives
                                                                                         to help ensure
              Department guidance stress the importance of performing these activities         are cost
              the integrity of information provided and confirm that operational investments
              effective and continue to support agency requirements. An official in the OCIO
                                                                                                     that
              acknowledged the need to perform these procedures on a regular basis but indicated
              responsibility had yet to be assigned.

                                             Guidance, Authority, and Resources

              The Department had not completed necessary revisions to information technology-
              related directives to incorporate the CPIC governance process. Specifically, the
              Department's information technology and project management directives had not been
              revised for alignment with the CPIC process in information technology reporting
              thresholds and the applicability of OMB requirements. The Department originally
                                                                                                 in
              projected completing needed revisions by the end of FY 2005; however, an official
              the OCIO indicated that they remained incomplete because of delays in reaching
              consensus on applying information technology capital planning guidance to NNSA. An
               NNSA official acknowledged the issue and stated that significant progress has been
               made in resolving it.

               Similarly, although initially developed by January 2004, the Department had not
               formally approved the operating charter for the ITC due to unresolved issues on
               applying the CPIC governance process to NNSA. According to the charter, the ITC is
               an advisory board of designated program and staff office representatives with
               responsibility for carrying out investment evaluation and providing recommendations to
               the Chief Information Officer (CIO). Without an approved charter, the ITC lacked a
               mandate for carrying out its role in the information technology capital planning process.

               Contrary to OMB guidance, the OCIO also had not allocated resources for
               implementing review and validation functions in support of the CPIC process. For FY
               2006, OMB required agencies to perform independent validation of reported
               performance for ongoing projects. An official in the OCIO acknowledged this
               shortcoming and indicated that this allocation would have to be performed to satisfy
               requirements.

               SUGGESTED ACTION

               To help ensure that the Department's information teclmology investment process is
               functioning as required, we suggest that the CIO, in coordination with the NNSA and
               other Lead Program Offices, move expeditiously to complete revisions to information
               technology-related directives and guidance and to ob:ain ITC charter approval.




                                                       3       .
04/03/06   10:16 FAX 301 903   4656          CAPITAL REGION                4   P'UKb PIVMA        ivuuo




                                                                  this report, a formal response is
              Since no formal recommendations are being made in
                                                                  staff during this audit.
              not required. We appreciate the cooperation of your




                                                  Rickey . Hass
                                                  Assistant Inspector General
                                                  Financial, Technology, and Corporate Audits
                                                  Office of Audit Services
                                                  Office of Inspector General

               Attachment

              cc:    Team Leader, Audit Liaison, CF-1.2
                     Director, Policy and Internal Controls Management, NA-66
                     Audit Liaison, EM-33
                     Audit Liaison, FE-3
                     Audit Liaison, IM-10
                     Audit Liaison, NE-10
                     Audit Liaison, SC-32.1




                                                    4
U4/U3/Ub   iU:   10   rAA    OIU     »UO   4000         koArl AL   kVai
                                                                     iUi            -*   ruO   rA            iuuu




                                                                                                    Attachment


                 SCOPE AND METHODOLOGY
                                                                                   Information
                 Fieldwork on the audit of the Department of Energy's (Department)
                                                                                     was performed
                 Technology Capital Planning and Investment Control Process (CPIC)
                 between November 2004 and March 2006 at Department Headquarters. To accomplish
                 the audit objective, we:

                        *       Obtained and reviewed past reports and evaluations and inquired about
                                ongoing work by the Office of Inspector General and Government
                                Accountability Office that were relevant to the capital planning and
                                investment control process;

                        *       Identified and reviewed Federal laws and directives and Department orders,
                                policies, procedures, and guidance relevant to the capital planning and
                                investment control process;

                        *       Held discussions with officials within the Office of Chief Information Officer
                                                                                                          of
                                (OCIO) in Washington, DC, and Germantown, MD, to determine the role
                                the OCIO in managing the Department's capital    planning  and investment
                                control process and the level of direction provided to program elements and
                                field sites in implementing the guidance;

                        *          Held discussions with program officials in the National Nuclear Security
                                   Administration (NNSA) and Offices of Environmental Management, Civilian
                                   Radioactive Waste Management, Nuclear Energy, Fossil Energy, and Science
                                   to gain an understanding of the CPIC process from their perspective;

                            *      Obtained and reviewed capital planning and investment-related documentation
                                   such as business cases for major investments, mission statements, and
                                   organization charts; and,

                            *      Attended various Information Technology Council meetings to observe and
                                   confirm process implementation.

                   The audit was performed in accordance with generally accepted Government auditing
                  Sstandards for performance audits and included tests of internal controls and compliance
                   with laws and regulations to the extent necessary to satisfy the audit objective.
                   Accordingly, we assessed significant internal controls and performance measures under
                   the Government Performance and Results Act of 1993 regarding management of the
                                                                                                         it
                   capital planning and investment control process. Because our review was limited,
                   would not necessarily have disclosed all internal control deficiencies  that may  have
                   existed at the time of our audit. We did not rely on computer-processed data to
                   accomplish our audit objective. We discussed the results of our audit with OCIO and
                   NNSA representatives on March 30, 2006.
